                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A07020008                                                                        Page 1 of 1



                A proactive review of grants that included international collaboration awarded during FY
         2004 identified possible issues related to this international collaborationaward.' The possible issues
         included improper use of Business Class, non-compliance with the Fly America Act, and a
         questioned cost of $1,000.

                 Responses and documentationreceived from the University indicated that the Business Class
         segments were not charged to the grant; that the grant was compliant with the Fly America Act; and
         that the questioned cost was appropriatelyreallocated from the PI'S supply budget. The allegations
         were therefore not substantiated.

                   Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
